             U.S. DEPARTMENT OF THE INTERIOR
             OFFICE OF INSPECTOR GENERAL




 Report on Grants Administered
  by the Office of Insular Affairs




No. 2003-I-0071                            September 2003
                                                                                  E-IN-OIA-0072-2002

                 United States Department of the Interior
                                   Office of Inspector General
                                          Eastern Region Audits
                                            381 Elden Street
                                                Suite 1100
                                         Herndon, Virginia 20170
                                                                                    September 30, 2003

Memorandum

To:         Deputy Assistant Secretary - Insular Affairs

From:       William J. Dolan, Jr.
            Regional Audit Manager, Eastern Region

Subject:    Final Audit Report on the Grant Administration by the Office of Insular Affairs
            (No. 2003-I-0071)

        This report presents the results of our audit of the Office of Insular Affairs’ (OIA) grant
administration. We found that OIA had properly processed awards and distributed grant funds.
However, we identified needed improvements to the control process used to monitor grants. We made
eight recommendations to improve the control process.

        In the June 30, 2003, response to our draft report, the Deputy Assistant Secretary for Insular
Affairs concurred with five of the report’s eight recommendations; partially concurred with one
recommendation and non-concurred with two recommendations. We therefore consider five
recommendations resolved and implemented. Based on the response, we also revised
Recommendations 1, 3, and 6 and now request a response to these revised recommendations.

        The legislation, as amended, creating the Office of Inspector General, (5 U.S.C. App. 3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement audit
recommendations, and recommendations that have not been implemented. Therefore, this report will
be included in our next semiannual report.

        Please provide a response to this report by November 25, 2003. The response should provide
the information requested in Appendix 4 and should be addressed to Mr. Roger LaRouche, Assistant
Inspector General for Audits, Office of Inspector General (MS 5341-MIB).

        We appreciate the cooperation exhibited by the OIA staff and compliment them for taking
timely actions to address the issues brought to their attention during our review. If you have any
questions regarding this report, please contact me at (703) 487-8011.
Executive Summary
Office of Insular Affairs Grant Administration

                    The Office of Insular Affairs (OIA) awards over 100 grants
OIA Needs           totaling about $51 million to Insular Area governments each year.
to Improve          These grants provide the technical and financial assistance
                    necessary to help these governments1 develop more dynamic
Monitoring of       economies and improve the quality of life for their citizens. OIA
Grants to Insular   properly processed grants and distributed grant funds. To more
Areas               effectively monitor these grants, OIA needs to improve their
                    management framework and control environment. Principal areas
                    that need to be addressed are:

                        ¾ A centralized grant-tracking system. The lack of such a
                          system, to some extent, impeded OIA’s ability to track,
                          compile, and summarize essential information on its active
                          grants.

                        ¾ Accountability. OIA did not always obtain the
                          documentation necessary to verify that projects were
                          progressing as expected or impose consequences for
                          grantees that did not meet grant requirements.

                        ¾ Management oversight. Lack of leadership by prior
                          management and oversight allowed OIA staff to bypass the
                          existing control procedures. We found cases in which a
                          document was altered, errors remained uncorrected, and
                          required approvals were not obtained.

                    Collectively, these and other weaknesses contributed to delayed
                    projects and services, and the waste of Federal monies intended to
                    improve the effectiveness of Insular Area governments.

                    The financial and program management challenges facing Insular
                    Area governments are formidable, long-standing, and well known.
                    Historically, Governments have experienced difficulty not only in
                    accounting for both Federal and local monies and controlling

                    1
                      Insular governments, for which the Secretary of the Interior has varying
                    responsibilities, include American Samoa, Guam, the Commonwealth of the
                    Northern Mariana Islands, and the U.S. Virgin Islands, all of which are U.S.
                    territories; as well as the Republic of the Marshall Islands, the Republic of
                    Palau, and the Federated States of Micronesia, which are sovereign nations
                    linked with the United States through Compacts of Free Association.


                                     i
                     expenditure levels, but also in delivering program services. In an
                     April 2002 press release, Secretary of the Interior Norton reiterated
                     the Department’s strong commitment to addressing these
                     challenges, when she announced that OIA leadership would be
                     upgraded from a Director to a Deputy Assistant Secretary of the
                     Interior. The position upgrade and the leadership of the new
                     Deputy Assistant Secretary are an important first step. On our
                     part, we are working closely with OIA and Insular Area
                     governments to identify deficiencies and encourage greater
                     accountability by all concerned.


                     Our report presents eight recommendations to the Deputy Assistant
Recommendations      Secretary for Insular Affairs, to improve controls.


                     The OIA concurred with five of the eight recommendations;
Deputy Assistant     partially concurred with one recommendation; and nonconcurred
Secretary Response   with two recommendations. We consider the five
and Office of        recommendations that OIA concurred with resolved and
                     implemented. The remaining three recommendations were revised
Inspector General    and are considered unresolved. We requested that the Deputy
Reply                Assistant Secretary respond to the revised recommendations.




                                   ii
Contents
                                                                                                                               Page
           Introduction .............................................................................................................1
              OIA Mission .........................................................................................................1
              Insular Area Issues ...............................................................................................1
              OIA Administration and Budget ..........................................................................2
              Objective and Scope.............................................................................................3
              Prior Audit Coverage............................................................................................4

           Results of Audit .......................................................................................................5
             Improvements to Monitoring of Insular Area Grants Needed ..............................5
             A Centralized Grant Tracking System..................................................................5
             Unexpended Grant Funds .....................................................................................6
             Internal Control Weaknesses ................................................................................7
             Unrecovered Disallowed Costs.............................................................................8
             Accountability ......................................................................................................9
             OIA Manual ........................................................................................................11

           Impact.....................................................................................................................12

           Recommendations .................................................................................................16

           Deputy Assistant Secretary, Office of Insular Affairs
            Response and Office of Inspector General Reply............................................17

           Appendix
               1               Prior Audit Coverage..........................................................................20
               2               OIA Response.....................................................................................21
               3               Status of Recommendations ...............................................................28

           Figures
                1              OIA Grants by Insular Area Government ............................................3
                2              Grant Balances Over 5 Years Old ........................................................7
                3              Reports Submitted by Field Representatives and Grantees................10
                4              Final Project Status Reports ..............................................................11
                5              Ordot Landfill ....................................................................................12
                6              St. Croix Detention Center ................................................................14

           Abbreviations
           CNMI.........................................................Commonwealth of the Northern Mariana Islands
           EPA ..................................................................................Environmental Protection Agency
           NBC................................................................................................National Business Center
           OIA ................................................................................................. Office of Insular Affairs
           U.S.C. ...................................................................................................... United States Code
           VI .................................................................................................... U.S. Virgin Islands


                                                        iii
Introduction
               The Office of Insular Affairs (OIA) executes the Secretary of the
OIA Mission    Interior’s responsibilities with respect to Insular Area
               governments. These governments are American Samoa, Guam,
               the Commonwealth of the Northern Mariana Islands (CNMI), and
               the U.S. Virgin Islands (VI), all of which are U.S. territories; and
               the Republic of the Marshall Islands, the Republic of Palau, and
               the Federated States of Micronesia, which are sovereign nations
               linked with the United States through Compacts of Free
               Association.

               The Secretary’s responsibilities include (1) providing the Insular
               Areas with financial assistance for government operations and
               needed infrastructure and (2) funding or arranging technical
               assistance and advisory services in all areas of government
               operations. According to OIA’s Annual Performance Plan for
               fiscal year 2003, this assistance is essential because local tax
               revenues and other Federal programs are insufficient to respond to
               local issues, such as differing stages of economic and political
               development and geographic isolation, which are unique to Insular
               Area governments.


               Over the past 20 years, disturbing trends have developed in the
Insular Area   ability of Insular Area governments to achieve sound financial
Issues         management, control expenditures, and operate government
               programs. Since 1982, in over 450 audits, we have detected and
               reported deficiencies and recommended corrective actions to
               various governing entities. Although most of our
               recommendations were accepted, most have not been
               implemented. It is therefore critical that the Department, acting
               through OIA, insist that Insular Area governments be accountable
               for monies provided through Departmental grants.

               The Secretary of the Interior stated the Department’s commitment
               to change in an April 22, 2002, press release appointing attorney
               David B. Cohen as the new Deputy Assistant Secretary for Insular
               Affairs of the Department of the Interior. The Secretary said, “The
               Administration is upgrading this position from Director of the
               Office of Insular Affairs to Deputy Assistant Secretary of the
               Interior to demonstrate our strong commitment to resolving the
               tremendous, long-standing economic and infrastructure challenges
               facing the Insular Areas.”



                                 1
                 OIA consists of three divisions: (1) the Policy Division, (2) the
OIA              Technical Assistance Division, and (3) the Budget and Grants
Administration   Management Division. The primary concern of the Policy
and Budget       Division is carrying out OIA’s goal to “help manage Federal-
                 Island relations by promoting appropriate Federal policies.” The
                 Technical Assistance and the Budget and Grants Management
                 Divisions focus on OIA’s goal to “assist the islands in developing
                 more efficient and effective government by providing financial and
                 technical assistance.”

                 OIA issues two types of grants: non-discretionary and
                 discretionary. Non-discretionary grants are those mandated by
                 Congress, which determines and sets forth the dollar amount and
                 purpose of each of these grants in either the appropriation act or
                 committee reports. Examples include grants for operations, capital
                 improvements, and special programs. Discretionary grants, on the
                 other hand, are awarded by OIA based on applications from Insular
                 Area governments. These grants include technical assistance and
                 operations and maintenance improvement grants.

                 Four grant managers administer all of the non-discretionary and
                 discretionary grants. Along with managing grants, these grant
                 managers perform other duties such as budget formulation,
                 compact fund negotiations, and Government Performance and
                 Results Act (GPRA) implementation. The grant managers receive
                 assistance from four field representatives located in the CNMI
                 (two representatives), American Samoa, and the Federated States
                 of Micronesia. The field representatives are responsible for
                 reviewing and investigating compliance with grant terms and
                 conditions.

                 In fiscal year 2002, OIA received a total budget of $353 million.
                 Congress appropriated the majority of these funds to the Compacts
                 of Free Association2 ($168 million) and fiscal assistance to the
                 U.S. territories ($106 million). The remaining $79 million
                 (1) provided operational support to American Samoa
                 ($23.1 million), (2) funded capital infrastructure programs for the
                 four U.S. territories ($27.7 million) and technical ($17 million) and
                 territorial ($6.7 million) assistance programs to all seven insular
                 governments, and (3) paid the administrative costs of the 32 full-
                 time positions that make up OIA ($4.5 million).


                 2
                   Funding to the Compacts of Free Association is not used for grants and
                 represents guaranteed payments and services to the Federated States of
                 Micronesia, the Republic of Palau, and the Republic of the Marshall Islands.
                 OIA sends payments to these governments every 90 days based on a percentage
                 rate and cannot assign any conditions on how the payments are used.
                                     2
                OIA awards approximately 100 discretionary and non-
                discretionary grants, totaling about $51 million, to Insular Area
                governments each year to improve government operations and to
                provide needed infrastructure. As shown on Figure 1, nearly 750
                grants have been awarded since 1997.


                                          200
                                          180                                              186
                                          160




                       Number of Grants
                                          140
                                          120
                                          100                 113          118
                                                                     102
                                           80
                                                         83
                                           60
                                           40
                                                37                               41   37
                                           20                                                    29
                                            0
                                                VI GUAM AS* CNMI FSM* Palau RMI* TA * BTS *
                                                                     Insular Govt


                                                                    OIA Grants by Insular Area Government
                                                                                   Fiscal Years 1997 - 2002
                                                                                                  Figure 1

                *AS is American Samoa; FSM is the Federated States of Micronesia; and RMI
                is the Republic of the Marshall Islands. Some Technical Assistance (TA) and
                Brown Tree Snake (BTS) grants serve several Insular Area governments and
                cannot be delineated by Insular Area.



                Our objective was to determine whether OIA has adequate
Objective and   administrative controls over awarding, distributing, and monitoring
Scope           grants. We judgmentally selected and reviewed 47 grants (36
                grants from fiscal years 1997 through 2002 and 11 grants over 5
                years old). We were not able to statistically select our sample
                because OIA could not provide an electronic database that
                combined all OIA grants. We included discretionary and non-
                discretionary grants in our grant selection, but excluded Compact
                of Free Association payments.




                                                     3
              We also reviewed OIA’s Annual Performance Plan for fiscal year
              20033 and found a program activity related to our objective in
              support of OIA’s mission goal to “Assist the islands in developing
              more efficient and effective government by providing financial and
              technical assistance.” We reviewed this program activity (Program
              Activity 1 – “Improve Infrastructure”) and concluded that OIA’s
              goal was appropriate, accurate, and properly disclosed.

              As part of our audit, we evaluated the internal controls over OIA’s
              administration of Insular Area grants and found significant
              weaknesses in the area of grant monitoring. We also noted OIA’s
              inability to meet its performance goals for accelerating the
              completion of grant-funded projects. Four of the seven OIA
              performance goals for fiscal year 2001 addressed this issue. OIA,
              however, met only one of these goals.4

              We discussed these weaknesses in the body of the report, and our
              recommendations, if implemented, should improve internal
              controls in these areas.

              We conducted our audit in accordance with the Government
              Auditing Standards, issued by the Comptroller General of the
              United States. Accordingly, we included such tests of records and
              other auditing procedures considered necessary under the
              circumstances.


              During the past 5 years, we have not issued any reports on the
Prior Audit   award, distribution, or monitoring of grants administered by OIA.
Coverage      We have, however, issued a report to the Government of the Virgin
              Islands which stated that contracts were ineffectively administered
              by the VI for the construction of health care facilities (see
              Appendix 1).




              3
                Under the Government Performance and Results Act of 1993 (5 U.S.C.,
              Section 306 and 31 U.S.C., Sections 1115 and 1116), Federal agencies are
              required to submit annual performance plans comparing planned
              accomplishments for mission-related activities with the results actually achieved
              in that year.
              4
                Two goals measured the timeframe from grant award to completion. OIA
              achieved the goal of 28 months for its technical assistance grants, but did not
              achieve this goal for its construction and infrastructure related grants (43 months
              actual completion time). The two other goals were to complete as many projects
              each year as started. Neither of these goals was achieved.
                                    4
Results of Audit
                   OIA properly processed awards and distributed grant funds, but
Improvements to    needs to monitor its grants to Insular Area governments more
Monitoring of      effectively. Specifically, OIA needs to:
Insular Area
Grants Needed            Establish a centralized grant-tracking system.
                         Examine grants over five years old and determine if funds
                          should be reprogrammed.
                         Ensure that Technical Assistance Division personnel follow
                          internal control procedures.
                         Recover all disallowed costs.
                         Hold both field representatives and grantees accountable
                          for ensuring that project status reports are completed on
                          time.
                         Update and use the OIA Manual.

                   Deficiencies in these areas occurred primarily because prior OIA
                   management did not always establish the control environment
                   necessary to ensure adequate oversight or establish consequences
                   for grantees that did not adhere to conditions of the grants. As a
                   result, projects were not completed on time, essential services were
                   delayed or not provided, and some Federal monies designed to
                   improve the economies and self-sufficiency of Insular Area
                   governments were wasted. For example, a $2.7 million grant
                   award to Guam in 1988 and 1989 for a hazardous landfill cleanup
                   project was never started, and a $1.5 million grant to the Virgin
                   Islands in 1984 for a detention center is only 10 percent complete.


                   OIA’s ability to monitor its inventory of grants could be improved
 A Centralized     by establishing a single grant-tracking system to properly and
 Grant             accurately track progress of all OIA grants. Specifically, this
 Tracking          system would include a database that would collect grant data that
 System            is not currently captured in the Department’s Financial
                   Management System. Although OIA possesses the grant-tracking
                   software program (Filemaker Pro), not all grant managers use this
                   software. Even those grant managers who did use the software
                   program maintained such dissimilar data that comparing and
                   analyzing grant data is extremely difficult. For example, one
                   database included data fields such as: project number, project title,
                   status, date awarded, amount awarded, amount drawn down and
                   project balance while another database only included the project
                   number, government, grant title and amount awarded.
                   Consequently, the task of using and summarizing data for all OIA
                   grants was so time consuming and cumbersome, that managers did
                                     5
              not have the appropriate data available to make informed
              decisions. In addition, a centralized grant-tracking database would
              help monitor the large numbers of grants and fund balances.

              The grant data was also maintained in separate electronic folders
              and not one centralized database. This is a problem because OIA
              management then needs to query each grant manager in order to
              produce a listing of all grants. The unavailability of one or more of
              the managers, at any given time, could result in an incomplete
              compilation of the data.

              Although the Technical Assistance Division maintained a database,
              it only included 4 (project number, territory, project name, and
              amount awarded) of the 12 attributes for tracking grants required
              by the OIA Manual.5 The Division’s non-compliance with the
              Manual contributed to OIA’s inability to adequately monitor
              technical assistance grants.

              In addition to using different systems to track grants, grant
              managers also did not maintain hard-copy files in a uniform
              manner. We believe that it would be beneficial for grant managers
              to maintain their files in a uniform manner so that other grant
              managers can easily determine the status of a grant.

              We believe that OIA would benefit from a centralized grant-
              tracking system which would provide complete information to
              management and make it easier for grant managers to retrieve
              grant data, such as, the date a grant was awarded and estimated to
              be completed to determine the status of drawdowns.


              We identified 986 grants that were over 5 years old with $33
Unexpended    million of remaining balances. We recognize that some grants,
Grant Funds   such as those for capital improvement projects, can take a number
              of years to complete; however, as shown in Figure 2, funds for
              some of these had been appropriated as far back as 1984. A few of
              these grants, such as those for the Ordot Landfill and the St. Croix
              Detention Center, have had little or no activity since the grants
              were awarded in 1988 and 1984 respectively.


              5
                Chapter 4 “Technical Assistance” of the Manual states that a database must
              include the following: “the date application was received, the project number,
              the name of the territory, the project name, the amount requested, the category,
              the subcategory, the status, the amount approved, the document number, the
              effective date, the FY [Fiscal Year] of obligation and notes or comments
              concerning the application.”
              6
                Of these, 90 were for capital improvement projects, 7 were for operations and
              maintenance improvement projects, and 1 was for Technical Assistance.
                                   6
                                   30
                                               29                                                Amount
                                   25                                                          Outstanding
                                         24    $8.6                                             In Millions




                Number of Grants
                                   20
                                                       18                          $.6
                                   15
                                                              14                                    $1
                                        $3.5          $4.9              $3.9                                          $1.4
                                   10                        $6.9
                                                                                             $2.2            $1

                                   5
                                                                               4
                                                                                         3               2
                                                                    2
                                   0                                                           1                  1

                                        96 95 94 93 92 91 89 88 87 84
                                                              Year Appropriated

                                                      Grant Balances Over 5 Years Old (by Fiscal Year)
                                                                                             Figure 2

             We believe OIA should examine the 98 grants over five years old
             to determine the status of each project and, if appropriate, seek
             authority to reprogram the funds for those projects which are no
             longer valid.

             We identified internal control weaknesses within the Technical
Internal     Assistance Division on 7 of the 27 grants reviewed. For example:
Control
Weaknesses                        An OIA employee copied an original memorandum
                                   transmitting a request for a payment and then changed the
                                   copy, thereby allowing the same payment request to be
                                   processed twice. It appears that the original transmittal
                                   letter for $15,000 was copied and then subsequently
                                   changed to show an additional $15,000 had been requested.
                                   However, we were unable to determine if the change was
                                   intentional or unintentional. A Technical Assistance
                                   secretary then processed the two transmittal memorandums
                                   on the same date to the National Business Center (NBC).
                                   Both memorandums referenced the same Request for
                                   Reimbursement (SF-270) from the grantee. The grantee
                                   found the error, informed OIA of the double payment, and
                                   OIA deducted that amount against the next drawdown as a
                                   method of reimbursement. Although these payments never
                                   exceeded the total grant amount, internal controls were not
                                   sufficient to prevent the erroneous payment request.

                                  An uncorrected clerical error increased a grant obligation.
                                   A CNMI grantee requested payment for the remaining
                                   balance of its grant of $66,257. When sending the
                                   transmittal memorandum to NBC for payment, OIA
                                   accidentally transposed two numbers and asked for
                                              7
                     $66,527. NBC caught the error and informed OIA. Rather
                     than correcting the error, OIA requested NBC to increase
                     the obligation by the difference of $270. NBC honored this
                     request, but OIA never amended the original grant
                     agreement and then overpaid the grantee by $270.

                    Five grants administered through the Technical Assistance
                     Division were not properly approved in accordance with
                     OIA’s Manual. One grant for $80,000 was signed only by
                     the OIA Director and did not have the required Division
                     Director (formerly Deputy Assistant Secretary) signature;
                     four grants totaling $507,000 had some, but not all,
                     required Division Director signatures. In addition, we were
                     unable to determine whether another eight grants were
                     properly approved because OIA could not provide the
                     surname approvals.

                     Regarding the approval of grant applications, the OIA
                     Manual states that the Technical Assistance Division
                     should prepare a letter and application to be transmitted to
                     the applicant. The Manual, Chapter 4 “Technical
                     Assistance” next states, “The documents are then surnamed
                     by the Deputy Assistant Secretaries and submitted to the
                     Assistant Secretary for signature.” OIA indicated during
                     our exit conference that a Division Director might not
                     surname an application because they may not agree with
                     the project and would have written an explanation on the
                     routing slip. However, we did not find any routing slips
                     with explanations in the files.

                     We believe the surname signature requirement is in place to
                     provide greater management control over deciding what
                     projects are funded. If OIA does not follow written
                     procedures for proper approvals, it could potentially fund
                     inappropriate and unqualified projects. Also, OIA should
                     develop more formal procedures for documenting any
                     disagreement with the awarding of the grant other than a
                     mere written explanation on the routing slip.

              On the following two grants, OIA allowed up to three years to
Unrecovered   lapse without enforcing repayment of disallowed costs.
Disallowed
Costs               OIA continued to fund its grant to CNMI for the Beach
                     Road Sewer Project even after requesting repayment of
                     disallowed costs almost 3 years earlier. In September
                     1999, the project Architectural & Engineering contractor
                     defaulted on the contract, and in February 2000 the grant
                     manager requested repayment of the disallowed costs of
                               8
                        $204,000 from CNMI. CNMI, however, was reluctant to
                        repay the disallowed costs and requested an independent
                        study, which subsequently supported OIA’s position. As of
                        September 2002, and after several letters between the
                        project and OIA grant managers, CNMI had yet to repay
                        OIA. Meanwhile, CNMI has continued to request and
                        receive drawdowns in excess of $300,000 on the same
                        project. Under the Code of Federal Regulations (43 CFR
                        12.83 (a)), “If a grantee or subgrantee materially fails to
                        comply with any term of an award…the awarding agency
                        may…temporarily withhold cash payments pending
                        correction of the deficiency by the grantee or subgrantee.”
                        OIA, however, has continued to authorize payments
                        requests for the project and did not enforce any repayment.

                       OIA inadvertently released a payment to CNMI after
                        withholding the pending payment because of a lack of
                        supporting documentation. In turn, CNMI released the
                        payment to the contractor in fiscal year 2000, despite
                        repeated OIA requests that CNMI withhold payment. OIA
                        considered the payment to the contractor an unallowable
                        cost and requested an immediate refund in March 2001. As
                        of September 2002, the unallowable costs had yet to be
                        recovered.

                        OIA staff stressed that forcing a government to repay
                        disallowed costs might create a cash flow problem in areas
                        with depressed local revenues. Therefore, depending on
                        the circumstances, OIA may choose either to work with
                        local governments or to enforce repayment. Although we
                        commend OIA for working with the local governments, we
                        also believe the disallowed grant cost should be recovered
                        expeditiously to demonstrate that misuse of Federal funds
                        is unacceptable.


                 Out of the 47 grants reviewed, OIA field representatives and
Accountability   grantees did not always submit the required status or final project
                 reports. Furthermore, OIA did not hold any field representatives or
                 grantees accountable nor were consequences imposed when
                 grantees failed to meet their responsibilities.

                 Reports on the status of grant projects are critical to OIA’s ability
                 to effectively monitor grants. Without such reports, grant
                 managers cannot determine or act on the progress of grant projects.
                 The OIA Manual, Chapter 3, “Grants Management of
                 Nondiscretionary Grants” says, in part, that OIA field
                 representatives shall “submit to the Grants Manager a quarterly
                                   9
progress report for each grant project using the form entitled
‘Capital Improvement Project Onsite Review’. Information
contained on the form will be developed from the onsite
inspections and project meetings with government officials.” In
addition, grantees are required to submit quarterly or semiannual
performance reports 30 days after the reporting period specified in
the grant and final performance reports “90 days after the
expiration or termination of grant support.”

Of the 47 grants reviewed, 27 required site visits and quarterly
progress reports from field representatives, and 42 required
quarterly or semiannual reports from the grantee. As shown in
Figure 3, however, only two files contained the required
information from the field representatives and only 21 files
contained the reports required from grantees. Although OIA
eliminated field representatives for the VI and Guam as a result of
a 1995 reorganization,7 grant managers informed us that they made
periodic visits to review insular projects. However, we did not
locate any documentation of the site visits in the grant files.


                                 25
               Number of Files




                                 20                   25
                                 15        21              21        20
                                 10
                                 5
                                      2                                      5
                                 0
                                          YES           NO             N/A
                                                Reports Submitted

                                            Field Representative   Grantee

                          Reports submitted by Field Representatives and Grantees
                                                                         Figure 3

Of the 47 grants reviewed, 24 had completed projects, 228 of
which required final project status reports. As shown on
Figure 4, however, only four9 grants had the required
documentation. One final project status report was not received
until 2 years after the project completion date.



7
  Our audit did not disclose any difference in grantee reporting between
locations in which OIA had stationed field representatives versus locations
without field representatives.
8
  One project represented interest accrued and another represented salaries.
These projects’ terms and conditions did not require final project status reports.
9
  Two of the four grants were for actual studies, and we accepted the studies as
reasonable notification to OIA of project completion.
                                  10
                                         20




                       Number of Files
                                         15                        18
                                         10

                                         5

                                         0         4
                                                    YES             NO
                                                     Reports Submitted


                                                                        Final Project Status Reports
                                                                                            Figure 4


             Without the required reports, OIA lacked the information
             necessary to effectively monitor the grants to ensure that projects
             were completed as planned and on time. We believe that OIA
             could improve grant management and grantee accountability by
             implementing consequences for grantees that do not meet their
             grant responsibilities. Such consequences could include, for
             example, initiating the retention of 10 percent of a project’s funds
             until final project status reports are received.


             The OIA Manual has not been updated since December 1991, and
OIA Manual   OIA staff use it infrequently. We believe that OIA needs to review
             and revise the Manual as appropriate to (1) include a section for
             operations and maintenance improvement projects, as indicated in
             the “Contents” and (2) reflect changes in OIA operations, such as
             the 1995 reorganization and downsizing. During our exit
             conference, OIA informed us that they are currently revising the
             OIA Manual.




                                              11
Impact
                 OIA recognizes that project completion is a significant
                 management challenge facing Insular Area governments and that it
                 should focus its efforts on helping the governments meet this
                 challenge. OIA grants are Federal investments designed
                 specifically to improve the economies and effectiveness of Insular
                 Area governments, and the success of this investment is measured
                 by the number of grants completed, proposed, and approved. We
                 believe, therefore, that delayed projects and services to Insular
                 Area citizens and the resulting increased costs equate to the waste
                 and abuse of grant monies, as demonstrated by the following
                 examples.


Ordot Landfill   Despite repeated requests since September 1994 from OIA’s grant
                 manager, Guam has not used the $2.7 million appropriated and
                 granted in 1988 and 1989 to upgrade the Ordot Landfill (Figure 5).
                 After years of inactivity, the Landfill has become a dumping
                 ground and is a recognized health and environmental hazard. In
                 August 2002, the Environmental Protection Agency (EPA) filed a
                 lawsuit10 to force Guam to close the Landfill.




                                                                   Ordot Landfill – Guam
                                          Office of Inspector General Photo – August 2002
                                                                                 Figure 5




                 10
                    According to the August 8, 2002, Pacific Daily News, “The U.S. government
                 filed a lawsuit to force Guam to close the Ordot dump...The lawsuit follows
                 more than 15 years of failed negotiations to push Guam to address the dump’s
                 many environmental hazards...”
                                     12
                      In our 1992 report (No. 92-I-590), we informed OIA that the
                      Landfill had not been expanded or upgraded as intended by the
                      grant and continued to operate in violation of Federal and local
                      environmental laws, rules, and regulations. In addition, we
                      reported that Guam had not established the solid waste disposal
                      fees required under the grant. Our report recommended that OIA
                      obtain an agreement with Guam to impose the user fee and if an
                      agreement could not be reached, to cancel the grant. In response to
                      our report, Guam stated that it was “working on ‘an integrated
                      approach’ to the problem that included closure of the Landfill in
                      6 years and development of a ‘state-of-the-art sanitary landfill
                      operation’ at a different site.” OIA stated that “the Assistant
                      Secretary will request that the Governor of Guam identify funding
                      shortfalls in other Federally approved programs and that if an
                      appropriate project is found, the Landfill funds ‘may be
                      reprogrammed’. The response also stated that if such a project is
                      not identified by April 1992, the Assistant Secretary will rescind
                      the Landfill grants.”

                      OIA has not rescinded the grant. Furthermore, we did not find any
                      documentation of onsite reviews by field representatives in the 7
                      years prior to eliminating the field representative position in Guam
                      in 1995 or by grant managers in the 15 years since initiation of the
                      grant in 1988. However, in September 2000, OIA approved a
                      request from Guam to use the grant funds for purchasing
                      equipment to operate the existing Ordot Landfill. Again, Guam
                      has not yet used the available funds. During the exit conference on
                      our current audit, OIA indicated that they are unable to rescind
                      grant funds without Congressional approval.

                      The VI has used only $110,000 of the $1.5 million grant awarded
St. Croix Detention   in 1984 to construct a detention center on St. Croix and, as of
Center                August 2002, the project has not been completed (Figure 6). On
                      July 6, 2001, the VI project manager sent a project status report to
                      OIA stating that construction for the center, which began in April
                      2001 was 10 percent complete and scheduled for completion by
                      June 2002. However, the latest request for payment was dated
                      October 16, 2000. In addition, an October 2002 document from
                      the OIA grant manager stated that the building should be
                      completed by December 2002, but as of February 2003 the project
                      was still incomplete.

                      In our examination of the grant file, we found several quarterly
                      financial status reports from the grantee and documentation of four
                      site visits by the OIA field representative, before the position was
                      eliminated in 1995. However, the June 1994 site visit report did
                      not indicate the completion status of the project. The only data
                      provided in the report was that the field representative assisted a
                                       13
                   VI employee in filling out a project description form. Since the
                   elimination of the VI field representative position, grant managers
                   were responsible for visiting the projects. However, we did not
                   find any documented site reviews from the responsible OIA grant
                   manager.




                                                    Unfinished St. Croix Detention Center
                                         Office of Inspector General Photo – August 2002
                                                                                 Figure 6



St. Croix Health   A project to construct a health center at St. Croix in the VI has
                   been delayed for over 8 years and has yet to be completed.
Facilities         Construction was originally scheduled to be completed within a
                   2-year period ending January 1994.

                   The project reflects a long history of indecision, poor planning, and
                   lack of communication between OIA and the grantee. The project
                   began in January 1992, when Congress appropriated $4.12 million
                   to construct the St. Croix East District Clinic (Charles Harwood
                   clinic) and $500,000 to construct a Rehabilitation Center. Between
                   1994 and 1997, OIA disbursed a total of $421,300 to the VI for the
                   project. In August 1998, however, OIA reprogrammed the entire
                   $4.6 million to a new health clinic project in St. Croix. In June
                   1999, the VI terminated its contract for construction of the new St.
                   Croix health clinic after it had spent $449,400. In October 2000,
                   OIA approved VI’s April 2000 request that the remaining funds of
                   the $4.12 million be reprogrammed back to the Charles Harwood
                   clinic. We noted that there was a 10-month period from March
                   1999 to January 2000 when the OIA grant manager was unaware
                   that the VI had initiated a stop work order on the current Charles
                   Harwood clinic.
                                    14
                     According to a March 2002 project status report, the project
                     completion date was June 30, 2002. Since June 2002, OIA has
                     approved an extension to September 2002, but the VI has not
                     completed the project and $449,450 was wasted on the abandoned
                     St. Croix health clinic project.

Rota Health Center   The project to expand the Rota Health Center, initially scheduled
                     for completion by August 1999, has been delayed 3 years and lacks
                     a prospective completion date.

                     CNMI awarded a contract to Sablan Construction Co. Ltd. to
                     expand the Center but later terminated the contract before the
                     expansion was completed. Project status reports from June 1999
                     through August 2001, when the contract was terminated, reported
                     that construction of the project was behind schedule. The delay
                     was the result of (1) a change order requested by Sablan
                     Construction to accommodate the Center’s desire for further
                     expansion, and (2) Sablan Construction’s failure to pay back wages
                     to its workers. An independent study requested by OIA, in March
                     2002, and performed by the U.S. Army Corps of Engineers
                     estimated that the project was only 60 to 65 percent complete. As
                     discussed on page 9 of this report, OIA denied approval of a CNMI
                     payment request because of a lack of supporting documentation
                     but OIA inadvertently released this payment. Subsequently, OIA
                     requested that CNMI withhold the payment to Sablan
                     Construction. In October 2000; however, CNMI paid Sablan
                     Construction. OIA considers this payment to be an unallowable
                     grant cost and in March 2001 it requested an immediate refund to
                     the Department.

                     A factor which may have contributed to the health center not being
                     completed was the performance of the construction management
                     firm, Dev & Associates. OIA was aware that Dev & Associates
                     had not successfully completed a previous project as the
                     construction manager but did not object to CNMI’s award of the
                     contract for construction management to Dev & Associates. In the
                     June 1999 OIA project status report for the Center, the field
                     representative noted, “OIA did not object even though we had
                     reservations about their ability to perform.” According to an OIA
                     grant manager, OIA does not get involved in the award of contracts
                     by Insular Area governments.

                     As of September 2002, two years after release of the payment, OIA
                     has yet to recover the unallowable costs, the contractor has been
                     disbarred, and the project remains suspended.



                                      15
                  OIA needs to improve its internal controls with a special emphasis
Summary
                  on grant management. OIA also needs to ensure that consequences
                  are imposed on any entity observed wasting, defrauding, or
                  abusing grant monies. We believe that our recommendations will
                  help OIA improve its oversight over grants to ensure that monies
                  provided by the Department actually assist Insular areas in moving
                  toward greater self-sufficiency and economic well being.



Recommendations
                  We recommend that the Deputy Assistant Secretary for Insular
                  Affairs:

                     1. Implement an automated, centralized grant-tracking
                        system.
                     2. Establish uniform requirements for project file contents.
                     3. Examine the grants over five years old and seek authority
                        to reprogram funds for those grant projects that are no
                        longer valid.
                     4. Require grant managers to document their site visits and
                        ensure that field representatives submit site visit reports.
                     5. Enforce grant agreements that require grantees submit
                        status and final reports.
                     6. Incorporate into all grant agreements a statement such as
                        “failure to comply with the terms and conditions of this
                        grant award, including reporting requirements, may result
                        in the withholding of grant payments until the deficient
                        situation is corrected.”
                     7. Provide for periodic reviews of the files by management to
                        ensure compliance with the OIA Manual and/or grant
                        agreements.
                     8. Complete the revision of the OIA Manual.




                                   16
Deputy Assistant Secretary, Office of Insular Affairs
Response and Office of Inspector General Reply
                 In the June 30, 2003, response (Appendix 3) to the draft report,
                 OIA concurred with five of the eight recommendations
                 (Recommendations 2, 4, 5, 7, and 8); partially concurred with one
                 recommendation (Recommendation 6); and nonconcurred with two
                 recommendations (Recommendations 1 and 3). The five
                 recommendations that OIA concurred with have been implemented
                 by issuance of the OIA Financial Assistance Manual on
                 March 31, 2003. The response also included detailed comments on
                 the draft report. We considered and included this information, as
                 appropriate, in preparing the final report.

                 The response disagreed with Recommendation 1, which stated that
                 OIA needs to establish a standardized grant-tracking system. The
                 response stated that OIA already has an automated, standardized
                 grant-tracking system that was instituted in 2000. Therefore, OIA
                 maintained that the statement in the Report that “the four grant
                 managers utilize different grants tracking systems” is incorrect.

                 During our audit, we found that OIA did use a grant tracking
                 system; however, this system was not centralized. Grant managers
                 may have been using the same software program (Filemaker Pro)
                 to enter data into a database, but not all active grants had been
                 entered into the database. In that regard, when we requested a
                 listing of grants from OIA, we received a separate listing from
                 each of the four different grant managers. Furthermore, the grant
                 managers did not use the same software program or database to
                 compile the listings. Therefore, we believe our previous statement
                 that the grant managers used different grant tracking systems is
                 accurate. The grants monitored by each manager are kept in
                 separate electronic folders because, according to OIA staff, the
                 consolidation of these folders would result in a system breakdown.
                 Since the existing OIA grant-tracking system does not centrally
                 track all grants in one database, we believe that a single centralized
                 database of grants would result in better overall management of
                 grant funds. To clarify this issue, we have made changes to the
                 report and modified the recommendation to state that OIA needs to
                 establish a “centralized” grant-tracking system.




                                   17
The response also disagreed with Recommendation 3, which is to
impose time limitations on funds obligated into grant agreements.
OIA states that it has options to seek reprogramming through
administrative budget processes or to seek a rescission or re-
appropriation through appropriation bills, and that it now includes
termination dates on its discretionary grants.

We commend OIA for recently imposing termination dates on it
discretionary grants, however most of the 98 grants over 5 years
are not discretionary. Therefore, based on OIA’s response, we
have revised Recommendation 3 to state that OIA should examine
the grants over five years old and seek authority to reprogram
funds for grant projects that are no longer valid.

Regarding the Ordot Landfill, OIA states that they “strongly
disagree with the Report’s suggestions that rescinding the grant
would have helped alleviate the environmental problems at Ordot.”
Furthermore, OIA concluded that it was still necessary to keep the
money available to help Guam address the landfill problem.
According to OIA, the Government of Guam recently stated that
they have ordered heavy equipment necessary to improve the
landfill. OIA expects the funds to be drawn down shortly.

We do not suggest that rescinding the grant funds would have
alleviated the environmental problems at the Landfill. We stated
that OIA did not rescind the funds despite the inactivity of grant
funds; the repeated requests from its grant manager to use the $2.7
million that was appropriated in 1988 and 1989; and the fact that
OIA, stated in April 1992 that “the Assistant Secretary will rescind
the Landfill grants.” We believe that if OIA had moved to rescind
the funds, the Government of Guam may have used the grant funds
to upgrade the Landfill. Finally, we support OIA’s recent decision
to use the Ordot funds for purchasing equipment to be used at the
Landfill.

OIA stated that it agrees with the intent of Recommendation 6 to
consider a retention of funds (10%) or termination of funding if the
grantee violates the grant agreement. However, it stated “that a
ten-percent retention was more of a contract mechanism than grant
tool,” and that a ten-percent retention is not authorized under the
Common Rule. The response also stated that “we do not agree
with the implication that OIA is not willing to exercise remedies in
appropriate circumstances” and that OIA grant managers are not
expected to automatically exercise remedies “simply because OIA
technically has a right to do so.” Finally, regarding this matter, the
response said that grant managers will weigh a number of
competing concerns and “decide on a course of action that makes
the most sense under the circumstances.”
                  18
We recognize that at times OIA has terminated grants, recovered
disallowed costs and withheld payments; however, we continue to
believe that consequences should be imposed for continued non-
compliance with grant requirements. In that regard, we agree that
the common rule does not provide for withholding payments as the
primary purpose of the rule is to provide guidance to grantees on
the administrative requirements for using grant funds. However,
we note that many of the OIA grant agreements contain terms and
conditions which include the statement “Failure to comply with the
terms and conditions of this grant award, including reporting
requirements may result in the withholding of grant payments until
the deficient situation is corrected.” That 21 of 47 grant files we
reviewed did not contain required status reports from the grantees
suggests that OIA grant managers may not be using all the tools
available to them. In any event, based on the response we have
revised Recommendation 6 to state that OIA should incorporate
into all its grant agreements the aforementioned provision on
failure to comply and enforce the provision as appropriate.

In summary, the Deputy Assistant Secretary’s response is
sufficient to consider recommendations 2, 4, 5, 7, and 8 resolved
and implemented. We are requesting that the Deputy Assistant
Secretary respond to the revised recommendations 1, 3, and 6 (see
Appendix 4 for Status of Recommendations).




                 19
Appendix 1
Prior Audit Coverage
                 Our report Grants for the Construction of Health Care Facilities,
Office of        Department of Health, Government of the Virgin Islands
Inspector        (No. 2002-I-0043), issued in September 2002, stated that the VI
General          had not effectively administered contracts for the construction of
Reports          health care facilities or maintained adequate financial
                 accountability for OIA grants. Specifically, the VI spent $870,700
                 on construction projects that were not completed. We found that
                 the VI had not followed established competitive procurement
                 procedures in the award of the contract for construction of a new
                 Christiansted Health Clinic. By the time the project was
                 terminated, the VI had already paid the contractor $449,400 for
                 work on the uncompleted facility. In addition, the VI was required
                 to reimburse OIA for the $421,300 spent on the previously
                 abandoned project to renovate the Charles Harwood Complex.




                                  20
     Appendix 2




21
22
23
24
25
26
27
 Appendix 3
 Status of Recommendations
Recommendation                Status                   Action Required
  2, 4, 5, 7 and 8   Resolved and Implemented.   No further response to the
                                                 Office of Inspector General is
                                                 necessary.

    1, 3 and 6              Unresolved           Provide a response to the
                                                 revised recommendations that
                                                 states concurrence or
                                                 nonconcurence with the
                                                 recommendations. If
                                                 concurrence, provide a
                                                 corrective action plan that
                                                 includes the target date and title
                                                 of the official responsible for
                                                 implementation of the
                                                 recommendations.




                                       28
                               How to Report
                  Fraud, Waste, Abuse, and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone – Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:

              Mail:         U.S. Department of the Interior
                            Office of Inspector General
                            Mail Stop 5341-MIB
                            1849 C Street, NW
                            Washington, DC 20240

              Phone:        24-Hour Toll Free            800-424-5081
                            Washington Metro Area        202-208-5300
                            Hearing Impaired (TTY)       202-208-2420
                            Fax                          202-208-6081
                            Caribbean Field Office       340-774-8300
                            Hawaiian Field Office        808-525-5310

              Internet:     www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
